<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-288]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 109-288, Pt. 2

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                             Department of the Interior

                                                   and Related Agencies

                                                         Appropriations

                                                       Fiscal Year 2006

                                          109th CONGRESS, FIRST SESSION

                                                              H.R. 2361

PART 2

ENVIRONMENTAL PROTECTION AGENCY







                                                 S. Hrg. 109-288, Pt. 2

  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2361

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR, 
ENVIRONMENT, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2006, AND FOR OTHER PURPOSES

                               __________

                                 PART 2

                    Environmental Protection Agency

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html







                     U.S. GOVERNMENT PRINTING OFFICE

35-578 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



















                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

             Subcommittee on Interior and Related Agencies

                     CONRAD BURNS, Montana Chairman
TED STEVENS, Alaska                  BYRON L. DORGAN, North Dakota
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   BARBARA A. MIKULSKI, Maryland
WAYNE ALLARD, Colorado               HERB KOHL, Wisconsin
                           Professional Staff
                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                              Ryan Thomas
                              Rebecca Benn
                       Peter Kiefhaber (Minority)
                       Rachael Taylor (Minority)

                         Administrative Support

                             Michele Gordon
















                            C O N T E N T S

                              ----------                              

                         Thursday, May 19, 2005
                    ENVIRONMENTAL PROTECTION AGENCY

                                                                   Page

Statement of Hon. Stephen L. Johnson, Administrator..............     1
Mike Ryan, Deputy Chief Financial Officer........................     1
Tom Dunn, Deputy Assistant Administrator for the OSRA Program....     1
Rob Brenner, Deputy for the Air Office...........................     1
Opening Statement of Senator Conrad Burns........................     1
Opening Statement of Senator Patrick J. Leahy....................     1
Opening Statement of Senator Byron L. Dorgan.....................     4
Opening Statement of Senator Wayne Allard........................     5
Summary Statement of Hon. Stephen L. Johnson.....................     6
Prepared Statement of Stephen Johnson............................     8
Homeland Security................................................     9
Clean Air and Global Change......................................     9
Clean and Safe Water.............................................    10
Land Preservation and Restoration................................    10
Healthy Communities and Ecosystems...............................    11
Compliance and Environmental Stewardship.........................    12
Effective Management.............................................    12






















 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         THURSDAY, MAY 19, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:09 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senator Burns, Allard, Dorgan, and Leahy.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF HON. STEPHEN L. JOHNSON, ADMINISTRATOR
ACCOMPANIED BY:
        MIKE RYAN, DEPUTY CHIEF FINANCIAL OFFICER
        TOM DUNN, DEPUTY ASSISTANT ADMINISTRATOR FOR THE OSRA PROGRAM
        ROB BRENNER, ASSISTANT ADMINISTRATOR, OFFICE OF AIR AND 
            RADIATION


               opening statement of senator conrad burns


    Senator Burns. We'll call the subcommittee to order this 
morning. It's 9:30, the witching hour. Senator Leahy has a 
previous engagement, a pretty important hearing in judiciary 
and he's a valued member of this subcommittee. Senator Leahy 
thank you for coming down; I understand you have some questions 
you want to submit.


             opening statement of senator patrick j. leahy


    Senator Leahy. I will, Mr. Chairman, and I appreciate your 
usual courtesy. Mr. Administrator, I'm glad to see you here. 
I've been looking forward to coming today, you've probably been 
looking forward to it too. And I appreciate your telephone 
conversation we had a couple of weeks ago. I'm concerned as I 
told you before about the administration's work on the 
environment.
    I'm also concerned and express that a number of Senators 
have had trouble getting responses. I do believe that you're a 
good nominee, I told the President that and I told you that. 
That's why I voted that way when we had the issue before us.
    I talked to you before about cleaning up Lake Champlain, 
which I believe is an absolute jewel in this country, one of my 
top priorities. I hope sometime you may have a chance to come 
up and see what we rightfully call our sixth great lake, but it 
is the largest body of water outside the Great Lakes. You're 
welcome to come to Vermont anytime.
    Mr. Johnson. I would love to take you up on that.
    Senator Leahy. I'm glad the funding is included in the 
President's budget. We have authorized $5 million there; the 
budget has less than $1 million, $956,000. Last year we 
increased that to $2.5 million with the help of Chairman Burns 
and Senator Dorgan. And we will work to do it some more. We've 
got to restore the lake.
    I hope the administration will change their attempts, I see 
it, I realize you see it differently, but rolling back the 
Clean Air Act. I think we've got to reduce the toxic emissions 
like mercury, especially those in the East, because of the 
prevailing winds. And the Environmental Protection Agency's 
(EPA) new rule was supposed to bring powerplants into the 21st 
century, and clean up the emissions. I see it as just delaying 
it for another 10 years.
    I came to the Senate about the time that we passed the 
Clean Air Act, and we had a huge amount of negotiation, 
Republicans, Democrats, got a bipartisan act but with a steady 
program of clean up, and we should not back away from that, 
because according to EPA's own regulatory impact analysis, 
we're going to be lucky if 1 percent of powerplants can pass 
their mercury controls by 2015, only 3 percent in 2020.
    Pregnant women, women of childbearing age, children can't 
wait that long. Twelve States, including New Jersey, 
California, Connecticut, Maine, New Mexico, New York, and 
Wisconsin decided to sue each other over this, it's not a 
partisan issue. Republicans and Democrats alike have said, 
you're own inspector general of the Government Accountability 
Office criticized how the rule was drafted.
    I think that of the 80,000 public comments of record, of 
those comments 6 were not ignored. And I have a great deal of 
respect for you, but I want you to know I'm very concerned 
about this rule. We will continue to work together. I will 
submit a number of questions for the record and again, Mr. 
Chairman, I appreciate your courtesy letting me go forward.
    Senator Burns. Thank you, Senator Leahy, and good luck this 
morning on your legislation, because that's very important to 
us, up in Montana. Today the subcommittee and related agencies 
will conduct what will likely be our final hearing in this 
fiscal year on this 2006 budget, our topic is the Environmental 
Protection Agency, and with us is the new Director. He's the 
newly appointed Administrator, Steven Johnson. I would like to 
welcome him before this subcommittee for the first time I've 
been at the helm anyway.
    So welcome to the friendly confines of this room. Although 
Mr. Johnson's first hearing here is today, he's been with the 
Agency about 24 years. So I'm looking forward to his thoughts 
as he should have some. If he hasn't formed any by now, my 
description of the bureaucracy would hold true. Thank you for 
being here today.
    Let me begin by saying that the EPA has one of the most 
important and difficult missions of all the Federal agencies. I 
know you have a big job. EPA's jurisdiction ranges from the 
responsibility for the clean up of Superfund sites such as 
Libby and asbestos sites in my home State of Montana to funding 
clean water and drinking water infrastructure, to enforcement 
of a long list of the laws. The administration has requested 
$7.567 billion in total budget authority for fiscal year 2006 
for the EPA.
    This is $218 million below the fiscal year 2005 request and 
$453 million below the fiscal year 2005 enacted level. The 6-
percent reduction in the EPA budget really concerns me. EPA has 
only been under the jurisdiction of this subcommittee a few 
months, but the enormity of clean water and drinking water 
infrastructure needs across this country has really left an 
impression on me.
    While the administration has requested level funding of 
$850 million for drinking water SRF of the revolving fund it 
has recommended a large reduction in State revolving loans. The 
administration is requesting $730 million for the clean water 
SRF which is $371 million below the fiscal year 2005 enacted 
level. The $730 million for clean water SRF is simply not 
enough.
    EPA's clean water and drinking infrastructure gap analysis 
published in 2002 indicates that a substantial gap in funding 
could develop if the country's clean water and drinking water 
systems maintain the current spending levels. That analysis 
estimates that the United States will need to spend $540 
billion, that's with a ``b'', $540 billion in the next 20 years 
just to stay abreast of the problem.
    I'm not certain yet what our subcommittee allocation will 
allow us to do, but I intend to try to fund both the State 
revolving loan funds, to close the fiscal year 2005 level as 
close to the 2005 level as I can possibly get it. EPA also 
faces significant challenges in cleaning up the 1,244 Superfund 
sites. On the national priorities list (NPL) and 64 sites 
proposed to make the NPL, the administration is requesting 
$1.279 billion for the Superfund program which is $31 million 
above fiscal year 2005.
    There's no question that the Superfund program could use 
increased funding to clean up sites currently on the NPL and 
those waiting to make that list. For example, the Libby 
asbestos site was added to the national priorities list in 
2002. Mr. Johnson, you're appearance here is especially timely 
for me and the residents of Libby, given the continued work on 
asbestos legislation where Senator Leahy was in route. That 
legislation is now pending in the Senate Judiciary Committee. I 
worked hard to make the Judiciary Committee aware of our 
situation in Libby, Montana; it is a site unto itself. Further 
I strongly encourage the EPA to budget the highest level of 
funding for that site. Folks in Libby have suffered greatly and 
I would like to see something more happen up there and to speed 
up the clean up in that area.
    It seems unlikely, because of severe budget restraints, 
that this subcommittee can allocate the total amount of money 
necessary to the Superfund accounts to address all sights on 
the MPL and those waiting to make the list. As an alternative, 
Mr. Administrator, I would hope that every effort will help to 
allocate resources within the Superfund program with the goal 
of both diminishing the immediate health risk to the 
communities surrounding these sites and completing the 
construction as swiftly as possible.
    There are many other issues that I could raise at this 
point ranging from the clean air mercury rule and the clean air 
interstate rule to one of the administration's new initiatives, 
methane to markets. But I'll save my comments when we start 
asking the questions.
    I would also like to thank you for being with us today. I 
look forward to working with you and the many challenges that 
we face, we hope we will face it together. This Agency has a 
tremendous responsibility; we're a little conflicted this 
morning as we're marking up the electric title and the energy 
bill. Senator Dorgan and I are both members of this committee. 
I'm going to send him up there to take care of my interests. 
Isn't that right?
    Senator Dorgan. I wouldn't sit really easy if I were you.
    Senator Burns. Senator Dorgan, the ranking member on this 
subcommittee, a valued member of it. If you have an opening 
statement you may proceed.


              opening statement of senator byron l. dorgan


    Senator Dorgan. We do have a mark up of the energy bill at 
9:30. We're doing the electric title. I'm going to be going up 
there as well. But, we do have similar interests with respect 
to energy issues and also EPA issues. And I support the concern 
of the chairman, expressed in his comments about the 33-percent 
cut in the clean water State revolving fund. I mean, that's 
what, as you know, helps our communities in their water 
treatment problems. The chairman indicated that the gap 
analysis done by the EPA suggests that the future needs for 
sewage treatment facilities are in the hundreds of billions of 
dollars. So, that's just the start of the difficulties we face 
Mr. Johnson.
    Mr. Johnson, welcome to you and congratulations on a long 
and distinguished career and now on the nomination and the new 
role that you play. You and I have had experience before at 
hearings. And I don't know how you view that experience, but I 
know that we've----
    Mr. Johnson. Good experience.
    Senator Dorgan. We've had some testy exchange from time to 
time. I wanted to say this, the chairman and I share the issue 
that brought you to Capitol Hill previously some years ago, 
that is the issue of chemical harmonization with Canada.
    A trade agreement which is typical of trade agreements, 
they promised the Moon on chemical harmonization with Canada 
and not really much has been done. And you and I have had 
hearings about that. You've testified and I know that you made 
some efforts, but I should say to--both in Montana and North 
Dakota all across the northern tier, farmers sit on the south 
side of that border and they have exactly the same chemicals 
they have on the north side; one difference, it's a 
significantly higher price. Yet they are not able to bring 
those chemicals from Canada, essentially the identical chemical 
across and put it on their crops, but the Canadians can put it 
on their crops and send their crops across. We're really out of 
patients.
    It's your bad luck that both the chairman and I are on this 
appropriations subcommittee because we can probably do a little 
dealing with this issue. My hope is that we can work--in some 
ways it's an appropriations issue, because it costs money to do 
what you need to do to actually make the committee to get 
harmonization. It's a promise that was made long ago and has 
not been kept.
    Speaking for myself and I hope perhaps the chairman, we can 
press EPA and work with you on this, and get an outcome that I 
think was contemplated and promised when NAFTA was passed so 
many years ago and an outcome that American consumers and 
farmers expect as well. Having said all that, Mr. Johnson as I 
said before, I admire your career. I think you're candid and 
straightforward. I'm interested in working with you, you 
inherit the budget recommendations sent to us by this 
President. I understand that, I have no idea what 
recommendations you would have offered had they been your 
recommendations, but you're here to defend the President's 
recommendations, no matter how hard the grilling you're not 
going to deviate for that message.
    The chairman has spoken for me and many on this 
subcommittee when saying, a 33-percent cut in the clean water 
State revolving fund is hardly an approach to dealing with 
clean water issues. It's the wrong way and we're going to have 
to work through this and we're going to need your help when the 
lights are turned off and we can have some back and forth about 
how we actually prioritize and do what's necessary. So, Mr. 
Johnson, thank you for being here and welcome to this new role.
    Mr. Johnson. Thank you, Senator.
    Senator Burns. Thank you, Senator, we've been joined by 
Senator Allard of Colorado. It's your turn.


               opening statement of senator wayne allard


    Senator Allard. Thank you for holding this hearing today 
and as you were all aware of, the EPA oversees a bulk of 
environmental regulations and requirements. And these 
regulations can be far reaching and have an unattended 
disproportionate effect on small communities.
    I think that this fact is very important that Congress--for 
this fact, I think it's important that we exercise some 
oversight of the Agency and its funding. One of the prime 
examples, Mr. Chairman, of the impact that EPA regulations can 
have on small communities, the arsenic regulations that will 
soon be taking effect.
    EPA's own website acknowledged the following and that is 
that arsenic occurs naturally in rocks and soil, water, air, 
plants, and animals. These are all natural and volcanic 
activity, the erosion of rocks and minerals and forest fires 
are all natural resources that can release arsenic in the 
environment.
    Yet the new requirements set by EPA, the small mountain 
communities are being forced to spend huge amounts of money to 
upgrade or replace their water treatment systems. Often the 
amount that they must spend exceeds or is greater than the 
towns entire operating budget.
    I recognize that EPA regulates some nasty and sometimes 
deadly substances, but many small communities have had to spend 
hundreds they simply do not have to remove naturally occurring 
substances. The cost-benefit analysis of regulation should be 
given more weight in situations like this in my view.
    There's been a dramatic change in the arsenic content from 
50 parts per billion now moving down to 5 parts per billion. 
And all these factors have come together and I can think of one 
particular community that is very poor, in the State of 
Colorado, there is a college there, a small college. And all 
these factors come together. And for them to try and meet these 
regulations, it's just very, very, difficult.
    So, we get around to enforcement. It seems you're always 
willing to enforce, but when there's an opportunity to try to 
help the community, environmental wants to pass that down to 
the State and say that's the State's responsibility to help 
out. There is something that's been created by the 
Environmental Protection Agency and I think unreasonably low 
standard here, and whether there's not particularly any health 
effects, that's been documented scientifically.
    Now these--it's creating a burden on some of these mountain 
communities, particularly the one that I'm thinking of. I'm 
also a little concerned that what I see is the climate, on the 
climate within the EPA is that, you know, I've received this 
communication from constituents, you're not as interested in 
assisting communities as you are in just complying with EPA 
regulations.
    My hope is that you can step forward and be a little more 
helpful in trying to get these communities to deal with these 
frustrating issues. You know, industry or anybody hasn't really 
caused this; this is just naturally occurring arsenic levels in 
this one particular town in particular.
    So I look forward to working with the Administrator and my 
colleagues to see that you're able, meaning the EPA, is able to 
reasonably carry out their mission in working with the 
subcommittee to ensure that activities at the Environmental 
Protection Agency are funded in a manner that is responsible 
and sufficient. Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator. Director Johnson, it's 
your turn.


              summary statement of hon. stephen l. johnson


    Mr. Johnson. Thank you, sir, thank you, Mr. Chairman.
    Senator Burns. We look forward to hearing from you. Welcome 
to the subcommittee.
    Mr. Johnson. Mr. Chairman, members of the subcommittee, I'm 
pleased to be here to discuss President Bush's fiscal year 2006 
request for the Environmental Protection Agency. I do look 
forward to working with the staff of the Subcommittee on the 
Interior and Related Agencies under which EPA has recently been 
placed.
    As the chairman noted earlier, this is my first time 
appearing before you as the Administrator of EPA and I am happy 
to be here. Mr. Chairman, I ask that my written testimony be 
made part of the record.
    Senator Burns. It will be.
    Mr. Johnson. As you know, EPA is a regulatory agency who's 
mission is to protect human health and the environment. We 
carry out this mission by developing and enforcing regulations 
that implement environmental laws enacted by Congress. The 
Agency also works at laboratories around the Nation to assess 
environmental conditions and to identify, understand, and solve 
current and future environmental problems.
    The President' fiscal year 2006 request of $7.6 billion 
supports the work of the EPA and our partners across the 
Nation. In his February 2 State of the Union Address, the 
President underscored the need to restrain spending. In order 
to sustain our economic prosperity as part of this restraint 
it's important that total discretionary and nonsecurity 
spending be held to levels proposed in the fiscal year 2006 
budget. The budget savings and reforms in the budget are 
important components of achieving the President's goal of 
cutting the budget deficit by half by 2009. And we urge the 
Congress to support these reforms.
    The fiscal year 2006 budget even includes more than 150 
reductions, reforms, and terminations in nondefense 
discretionary programs of which two affect EPA programs. The 
Agency wants to work with Congress to achieve these savings.
    As we present the President's 2006 budget, I'm certain it 
will allow us to increase the pace of protecting environmental 
health and improvement. I would like to continue by emphasizing 
that the Agency is committed to building on four cornerstones: 
new technologies, market incentive, collaborative efforts, and 
a focus on results to achieve greater gains in environmental 
protection.
    This budget engages a full range of partners, not just 
Federal, State, tribal, and local, but also businesses, 
interest groups, and educational institutions.
    To help leverage our Federal money, in fact through 
collaborative networks and partnerships to foster healthy 
communities, we will be able to leverage billions of additional 
dollars--I will highlight just a few of the programs that 
illustrate the strong commitment to a cleaner healthier 
America.
    Clean fuels and clean technologies are also an integral 
part of reducing emissions from mobile resources. The fiscal 
year 2006 President's budget provides $15 million for the clean 
diesel initiative.
    EPA and a coalition of clean diesel interests will work 
together to expand the retrofitting of diesel engines into new 
sectors. President Bush is also requesting $210 million in 2006 
for the Brownfield's program, an increase of $46.9 billion over 
the enacted 2005 funding.
    EPA is working with the State, tribe, and local partners to 
meet the objective to clean up and restore contaminated 
properties and abandoned sites. Together with the extension of 
the Brownfield's tax credit, the EPA expects to achieve the 
following in 2006: Assess 1,000 Brownfield properties, clean up 
60 properties using Brownfields funding, leverage resources to 
yield $1 billion, create 5,000 jobs, train 200 participants, 
placing 65 percent in jobs related to Brownfield efforts.
    The 2005 budget increases support to $73 million for the 
Great Lakes programs and regional collaboration. That amount 
includes $50 million for the Great Lakes Legacy Act program to 
remediate contaminated sediment in areas of concern such as the 
Black Lagoon and Detroit River. Removing contamination and 
providing a natural process for keeping it healthy means that 
every drop of water flowing to the lagoon will be cleaner.
    As part of the core program to improve water quality the 
EPA will continue to provide significant annual capitalization 
to the clean water State revolving funds. During fiscal year 
2006, EPA and the States community water systems will build on 
past successes while working toward the fiscal year 2008 goal 
of assuring that 95 percent of the population served by 
community water systems receiving drinking water that meets all 
applicable standards.
    To help ensure that the water is safe to drink, the 2006 
President's budget requests $850 million--$7.6 billion also 
effects a strong commitment to safeguard human health and the 
environment with funds to insure that EPA's critical role in 
homeland security is made a top priority.
    EPA's request includes $79 million in new resources for 
homeland security efforts. $44 million will launch in selected 
cities as pilot programs of monitoring and surveillance to 
provide early warning of contamination. Environmental 
decontamination research and preparedness increases by $19.4 
million with $4 million being requested for the safe buildings 
research program. Over $11.6 million in new resource will 
support preparedness and response-related activities at State 
and EPA environmental laboratories.


                           prepared statement


    In summary, this budget will enable us to carry out our 
goals and objectives as set forth in our strategic plan, help 
us meet new challenges, move forward EPA's core programs as 
reflected in the Nation's environmental statutes, protect our 
homeland, and identify new and better ways to carry out EPA's 
mission while maintaining our national competitiveness.
    That concludes my statement. I will be pleased to answer 
any questions you and the others may have involving EPA's work 
and our 2006 budget request.
    Senator Burns. We thank you for your testimony and your 
full statement will be made part of the record.
    [The statement follows:]
                 Prepared Statement of Stephen Johnson
    Mr. Chairman and Members of the Committee, I am pleased to be here 
to discuss the fiscal year 2006 budget request for the Environmental 
Protection Agency (EPA) and I look forward to working with the members 
and staff of the Subcommittee on Interior and Related Agencies under 
which EPA has recently been placed. This is my first time appearing 
before you as the Administrator of EPA and I am happy to be here.
    EPA is a regulatory agency whose mission is to protect human health 
and the environment. We carry out this mission by developing and 
enforcing regulations that implement environmental laws enacted by 
Congress. In addition, the Agency works at laboratories throughout the 
nation to assess environmental conditions and to identify, understand, 
and solve current and future environmental problems.
    The President's fiscal year 2006 budget request of $7.6 billion 
reflects a strong commitment to protect health and safeguard the 
environment. This includes moving forward EPA's core programs as 
reflected in the nation's environmental statutes. This request will 
also ensure that EPA's critical role in homeland security is made a top 
priority.
    In his February 2 State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 Budget. The budget savings and reforms 
in the Budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009 and we urge the 
Congress to support these reforms. The fiscal year 2006 Budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which four affect EPA. The Agency wants to 
work with the Congress to achieve these savings.
    Mr. Chairman, the Agency has accomplished a great deal. We have 
cleaned the water, improved our air and protected and restored our 
lands. While the nation's environmental well being has shown a steady 
improvement, there is more to do. Much of what remains is enormously 
complex and more expensive.
    Bringing a healthy environment to our communities is a 
responsibility we all share. Engaging the full range of partners--not 
just federal, state, tribal, and local but also businesses, interest 
groups, international and regional authorities and educational 
institutions--leverages our federal monies through collaboration. New 
science, innovation and technology development, regulation, and market-
based solutions that support these efforts are all a part of this 
budget request.
    This budget, Mr. Chairman, will enable us to carry out our goals 
and objectives as set forth in our Strategic Plan and help us to meet 
our challenges. It supports the Administration's commitment to 
environmental results by identifying new and better ways to carry out 
EPA's mission while protecting our national competitiveness.
                           homeland security
    Three years ago we took on significant new responsibilities in 
homeland security work that was necessary to protect human health and 
the environment from intentional harm. In fiscal year 2006 we are 
taking another big step towards filling the gaps we've identified. 
EPA's request includes $79 million in new resources for critical 
homeland security efforts. EPA plays a lead role for addressing the 
decontamination of deadly chemical, biological and radiological 
contaminants. The nation must have the tools and procedures in place to 
respond effectively and swiftly after a terrorist event.
    One of our most important homeland security responsibilities is to 
protect our drinking water supply. $44 million will launch pilot 
programs in cities of various sizes to explore technology and systems 
that detect contamination before it causes large scale harm. The 
program includes resources to create the Water Alliance for Threat 
Reduction to train and prepare the operators of our nation's largest 
drinking water systems.
    Response to terrorist events may call for decontamination from many 
new hazards. Environmental decontamination research and preparedness 
increases by $19.4 million, and an additional $4 million is requested 
for the Safe Buildings research program. Over $11 million in new 
resources will support preparedness in our environmental laboratories. 
Working with federal partners in Homeland Security, EPA will plan for 
certain fundamental laboratory network needs, such as appropriate 
connectivity between member labs and standardized methods and 
measurements for environmental samples of terrorism-related agents of 
concern. Resources also support training and continuing education for 
member laboratories, as well as accreditation and accountability.
                      clean air and global change
    The fiscal year 2006 President's Budget requests $969 million to 
implement EPA's Clean Air and Global Climate Change goal through 
national programs designed to provide healthier outdoor and indoor air 
for all Americans, protect the stratospheric ozone layer, minimize the 
risks from radiation releases, reduce greenhouse gas intensity, and 
enhance science and research. EPA's key clean air programs--particulate 
matter, ozone, acid rain, air toxics, indoor air, radiation and 
stratospheric ozone depletion--address some of the highest health and 
environmental risks faced by the Agency. Also in this area, I look 
forward to working with you Mr. Chairman, in passing Clear Skies 
legislation.
    Clean fuels and clean technologies are also an integral part of 
reducing emissions from mobile sources. The fiscal year 2006 
President's Budget provides $15 million for the Clean Diesel 
Initiative. EPA and a coalition of clean diesel interests will work 
together to expand the retrofitting of diesel engines into new sectors 
by adopting a risk-based strategy, targeting key places and working 
with specific use sectors to identify opportunities to accelerate the 
adoption of cleaner technologies and fuels. The $15 million proposed 
for this program will be leveraged significantly by working with our 
partners. Reducing the level of sulfur in the fuel used by existing 
diesel engines will provide additional immediate public health benefits 
by reducing particulate matter from these engines.
    EPA's Climate Protection Programs will continue to contribute to 
the President's 18 percent greenhouse gas intensity reduction goal by 
2012. In addition, the fiscal year 2006 President's Budget requests $4 
million for EPA to implement the Methane to Markets Partnership, an 
important U.S.-led international initiative and Administration priority 
that promotes cost-effective, near-term recovery and use of methane--a 
very powerful greenhouse gas--as a clean energy source. Methane to 
Markets builds on the success of our domestic methane programs with 
U.S. industry, and is designed to assist other countries in achieving 
significant reductions in the same way: voluntarily, cost-effectively, 
in partnership with the private sector, and in a manner than supports 
development, economic growth, energy security and the environment. To 
date, 16 countries from the developed and developing world and over 90 
organizations from the private and public sectors have made a 
commitment to this Partnership. The countries include: Argentina, 
Australia, Brazil, Canada, China, Colombia, India, Italy, Japan, 
Mexico, Nigeria, Russia, South Korea, Ukraine, the United Kingdom and 
the United States. The requested funding is part of the President's 
pledge of up to $53 million over the next five years. These resources 
will be used for Ministerial activities and to promote technology 
transfer and provide technical assistance. Private sector investment 
and involvement is an important part of Methane to Markets and is 
critical to the success of the partnership. Funding the President's 
request for the Methane to Markets Partnership will send a clear signal 
to the world that the United States is committed to the success of 
voluntary, technology-driven programs to address the challenge of 
climate change.
                          clean and safe water
    In fiscal year 2006, the budget requests $2.8 billion to implement 
the Clean and Safe Water goal through programs designed to provide 
improvements in the quality of surface waters and drinking water. In 
fiscal year 2006, EPA will work with states and tribes to continue to 
accomplish measurable improvements in the safety of the nation's 
drinking water, and in the conditions of rivers, lakes, and coastal 
waters. With the help of these partners, EPA expects to make 
significant progress in these areas, as well as support a few more 
focused water initiatives.
    In fiscal year 2006, EPA will work with States to make continued 
progress toward the clean water goals through implementation of core 
clean water programs and acceleration of efforts to improve water 
quality on a watershed basis. Efforts include innovative programs 
spanning entire watersheds. To protect and improve water quality, a top 
priority is to continue to support water quality monitoring to 
strengthen water quality data and increase the number of water bodies 
assessed. The Agency's request includes $24 million to build on the 
monitoring initiative begun in fiscal year 2005 by establishing a 
nationwide monitoring network and expanding the baseline water quality 
assessment to include lakes and streams. The initiative will allow EPA 
to establish scientifically defensible water quality data and 
information essential for cleaning up and protecting the Nation's 
waters. The funding provides additional resources to states in order 
for them to contribute to the development of this baseline of water 
conditions across our country.
    To support sustainable wastewater infrastructure, EPA will continue 
to provide significant annual capitalization to the Clean Water State 
Revolving Funds (CWSRF). The budget provides $730 million for the 
CWSRF, which will allow EPA to meet the Administration's Federal 
capitalization target of $6.8 billion total for 2004-2011 and enable 
the CWSRF to eventually revolve at a level of $3.4 billion.
    During fiscal year 2006, EPA, the states, and community water 
systems will build on past successes while working toward the fiscal 
year 2008 goal of assuring that 95 percent of the population served by 
community water systems receives drinking water that meets all 
applicable standards. To help ensure that water is safe to drink, the 
fiscal year 2006 President's Budget requests $850 million for the 
Drinking Water State Revolving Fund.
                   land preservation and restoration
    $1.7 billion of the fiscal year 2006 President's Budget will help 
to implement the Land Preservation and Restoration goal through 
continued promotion of the Land Revitalization Initiative, first 
established in 2003. Revitalized land can be used in many beneficial 
ways, including the creation of public parks, the restoration of 
ecological systems, the establishment of multi-purpose developments, 
and the establishment of new businesses. Regardless of whether a 
property is an abandoned industrial facility, a waste disposal area, a 
former gas station, or a Superfund site, this initiative helps to 
ensure that reuse considerations are fully integrated into all EPA 
cleanup decisions and programs. Through the One Clean-up Program, the 
Agency will also work with its partners and stakeholders to enhance 
coordination, planning and communication across the full range of 
Federal, State, Tribal and local clean-up programs to promote 
consistency and enhanced effectiveness at site cleanups.
    The fiscal year 2006 President's Budget funds the Superfund 
Appropriation at $1.3 billion. Within this total, the Superfund 
Remedial Program provides significant resources in EPA's effort to 
preserve and restore land to productive use. In fiscal year 2006, the 
Superfund Remedial Program will continue its clean-up and response work 
to achieve risk reduction, construction completion and restoration of 
contaminated sites to productive use. In fiscal year 2006, the Remedial 
Program anticipates completing construction of remedies at 40 Superfund 
sites.
    Enforcement programs are also critical to the agency's ability to 
clean up the vast majority of the nation's worst hazardous sites by 
securing funding from Potentially Responsible Parties (PRPs). The 
Agency will continue to encourage the establishment and use of Special 
Accounts within the Superfund Trust Fund to finance cleanups. These 
accounts segregate site-specific funds obtained from responsible 
parties that complete settlement agreements with EPA and total a 
cumulative $1.5 billion. These funds can create an incentive for other 
PRPs to perform work they might not be willing to perform or used by 
the Agency to fund clean up. As a result, is the Agency can clean up 
more sites and preserve appropriated Trust Fund dollars for sites 
without viable PRPs.
                   healthy communities and ecosystems
    The fiscal year 2006 President's Budget requests $1.3 billion to 
implement national multi-media, multi-stakeholder efforts needed to 
sustain and restore healthy communities and ecosystems, which are 
impacted by the full range of air, water and land issues. Programs such 
as Brownfields, the Great Lakes collaboration and the targeted 
watersheds work must reflect local priorities and local stakeholder 
involvement to be effective.
    Proper use and careful selection of chemicals and pesticides 
influence air quality, clean water and the health of the land. 
Carefully targeted research is necessary to keep the Agency at the 
forefront of the science that will point to tomorrow's concerns as well 
as tomorrow's solutions.
    Fiscal year 2006 will be a key year for the chemicals and 
pesticides programs. The High Volume Production chemicals program will 
move from data collection to first-time screening for possible risks. 
Many of these chemicals entered the marketplace before the Toxics 
Substances Control Act was passed and EPA's screening process was put 
in place. Fiscal year 2006 also marks the final milestone in the ten-
year pesticide tolerance reassessment program, which ensures older 
food-use pesticides meet the latest scientific standards for safety.
    The Brownfields program is a top environmental priority for the 
Administration. EPA is working with its state, Tribal and local 
partners to meet its objective to sustain, cleanup and restore 
contaminated properties and abandoned sites. Together with the 
extension of the Brownfields tax credit, EPA expects to achieve the 
following in fiscal year 2006: assess 1,000 Brownfields properties; 
clean up 60 properties using Brownfields funding; leverage resources to 
yield $1 billion in cleanup and redevelopment funding and 5,000 jobs; 
and train 200 participants, placing 65 percent in jobs related to the 
Brownfields efforts.
    There is great population and industrial pressure on the areas 
surrounding our large water bodies--the Great Lakes, the Chesapeake 
Bay, the Gulf of Mexico, and our wetlands in general. EPA has 
established special programs to protect and restore these unique 
resources by addressing the vulnerabilities of each.
    The Great Lakes program will build on collaborative networks to 
remedy pollution, with a budget proposal to increase funding for the 
Great Lakes Legacy program to $50 million in order to remediate 
sediment that was contaminated by improperly managed old industrial 
chemicals. Chesapeake Bay resources in this budget total over $20 
million. EPA's work in the Chesapeake Bay is based on a regional 
partnership whose members have committed to specific actions aimed at 
reducing both nutrient and sediment pollution. Wetlands and estuaries 
are increasingly stressed as costal population density grows. The 
fiscal year 2006 budget provides over $40 million for our work to 
protect these ecosystems. Again, effective collaboration is key to 
protecting these primary habitats for fish, waterfowl and wildlife. Our 
work with the Corps of Engineers will be instrumental in protecting 
these valuable natural resources.
    Toxic chemicals reduction is also the emphasis of Community Action 
for a Renewed Environment projects. The requested increase of $7 
million will offer many more communities the opportunity to improve 
their environment through voluntary action. EPA expects to establish 80 
CARE programs across the nation in fiscal year 2006, building on 
experience gained from 10 projects started in 2005.
    In the research area, over $5 million is requested for the Advanced 
Monitoring Initiative. This initiative will combine information 
technology with remote sensing capabilities, to allow faster, more 
efficient response to changing environmental conditions such as forest 
fires or storm events, as well as current ecosystems stressors in 
sensitive areas such as the Great Lakes or the Everglades. EPA also 
continues to make progress in the area of computational toxicology. In 
fiscal year 2006, the program expects to deliver the first alternative 
assay for animal testing of environmental toxicants, a major milestone 
toward the long-term goal of reducing the need for animal testing. 
Other major research efforts include human health risk assessments, 
which will inform agency regulatory and policy decisions, and research 
for ecosystems, which will emphasize evaluating the effectiveness of 
restoration options.
    The President's Budget also includes $23 million for a new 
competitive State and Tribal Performance Fund. The Performance Grant 
Fund will support projects that include tangible, performance-based 
environmental and health outcomes--and that can serve as measurement 
and results-oriented models for implementation across the nation.
                compliance and environmental stewardship
    The fiscal year 2006 President's Budget requests $761 million to 
implement national programs to promote and enforce compliance with our 
environmental laws, and to foster pollution prevention and tribal 
stewardship. The Agency will employ a mixture of effective inspection, 
enforcement and compliance assistance strategies. Also within this 
goal, EPA will protect human health and the environment by encouraging 
innovation and providing incentives for governments, businesses, and 
the public to promote environmental stewardship. In addition, EPA will 
assist Federally recognized Tribes in assessing environmental 
conditions in Indian Country, and will help build their capacity to 
implement environmental programs.
    The Agency's enforcement program works with states, tribes, local 
governments and other federal agencies to identify the most significant 
risks to human health and the environment, address patterns of non-
compliance and work to ensure communities or neighborhoods are not 
disproportionately exposed to pollutants. This flexible, strategic use 
of EPA's and our state and tribal partners' resources brought over 1 
billion pounds of pollution reduction in fiscal year 2004, and helps to 
ensure consistent and fair enforcement.
    EPA also strives to foster a culture of creative environmental 
problem-solving, not only with our state, tribal and federal partners 
but also with industry, universities and others. The result is a high 
capacity for implementing collaborative results-driven innovations and 
the organizational systems to support them. The President's Budget 
supports pollution prevention and other efforts to improve 
environmental performance, looking at the full range of possible 
interventions that would reduce waste created, reduce highly toxic 
materials in use, and reduce the energy or water resources used. These 
changes also make good business sense, often improving ``the bottom 
line'' for participating companies.
    Agency resources for tribal programs support their environmental 
stewardship through a variety of means in every major program: air, 
water, land and others. In the Compliance and Environmental Stewardship 
goal, General Assistance Grants develop tribal capacity to implement 
environmental programs in Indian Country in line with local priorities. 
In fiscal year 2006, EPA will support approximately 510 federally 
recognized tribes through these grants.
                          effective management
    Throughout its operations, EPA is working to maximize effectiveness 
and efficiency, implementing new information technology solutions and 
streamlining operations. The research and development areas, for 
example, will see changes geared toward maximizing the effectiveness 
and relevance of applied research throughout the Agency. Continuing to 
improve internal controls and accountability is another priority. 
Fiscal year 2006 marks the next phase in our financial systems 
replacement which will enhance our internal systems. For our work with 
external partners, the Exchange Network and the Integrated Portal will 
provide the foundation for states, Tribes, the public, regulated 
community and EPA to increase data availability, collect better data 
and enhance the security of sensitive data.
    Finally, EPA is making our grant programs work better. We are using 
new tools to help us achieve our goals: increasing competition for 
discretionary grant awards, making grants more outcome-oriented to meet 
Agency performance goals, strengthening oversight and accountability 
and providing more transparency to promote an open process.

    Senator Burns. We might as well start off with the 
revolving fund as you know, it's funded right now around $850 
million, and we were $1.1 billion, I think, last year. And the 
fund continues to be one of the most sought after ways of 
financing water systems across America.
    I would have to ask you right now what this suggested cut 
from the administration, how they justify reducing that funding 
and that re-revolving fund in the face of the request and the 
demand for the dollars at this time?
    Mr. Johnson. Well, Mr. Chairman, we certainly agree that 
our water infrastructure is indeed aging across America. And 
there is a continued need to provide funding both at the 
Federal, the State, ratepayers, and other levels to address 
this issue. The 2006 request by the President of $730 million 
honors a commitment that the President made that the total 
Federal capitalization would amount to $6.8 billion.
    So when you look at each of the years prior to 2006, and 
then you project $730 million out until 2008, that fulfills the 
President's commitment to have a total Federal capitalization 
of $6.8 billion, that will enable the fund to actually revolve 
at $3.4 billion per year.
    Senator Burns. But doesn't that also feed into the idea of 
the--the reason that the gap analysis holds true is that we're 
headed for bigger problems if we don't steadily increase those 
funds?
    Mr. Johnson. Well, I think that--clearly as I said----
    Senator Burns. Or am I thinking in two different areas?
    Mr. Johnson. No. The aging infrastructure, the need is 
large. And by a number of estimates are literally in the 
hundreds of billions of dollars when you compare the need of 
hundreds of billions of dollars with a total EPA budget of $7.6 
billion or $8 billion. I mean, even if EPA were to provide all 
of it's funding, it doesn't address the gap.
    So, what certainly I look forward to working with you and 
other members, because I think that we need to find a better 
way of addressing this gap. Clearly, the Federal Government has 
a role, has a significant role to play, we're honoring the 
President's commitment to have a revolving fund at $6.8 
billion, but even with that, it's clear that the gap is larger.
    So we're going to have to figure out a better way of trying 
to address this. And Mr. Chairman I look forward to working 
with you and other members to see how we might be able the do 
that.
    Senator Burns. You've just taken over the reigns down 
there, are you doing anything in the way to adopt other 
approaches? It seems as though there ought to be some 
imagination down there somewhere if we dig hard enough.
    Mr. Johnson. Yes, sir, there is imagination. And among the 
items that we have been talking about, well, there are some 
unique opportunities for the revolving fund and other things, 
but then there are other areas which get into dealing with how 
do we--we know that water quantity, particularly as we move 
from your part of the country further west becomes even more 
critical. And so, are there things that we can be doing to help 
deal with the water quantity issue?
    Are there technologies and certainly our research and 
development arm, and others are looking at what are some 
innovative technologies we might be able to use that are more 
cost efficient. Cost effective, and I'm sure there's other 
imaginations which I will look forward to sharing with you and 
seeing how we might be able to address what I believe is a 
significant problem for the county.
    Senator Burns. Well, I'll tell you, a long time ago when I 
first went to Montana I was raised on one end of the Missouri 
River, looks like I'm going the die on the other end with a 
little luck. But when I first went to Montana many years ago, 
and when you look at the State world water--at the State, we're 
a watershed State.
    I would venture to say that 50 percent of the water goes by 
Kansas City, Missouri started in Montana. But I also understand 
about how we feel about water in the west.
    Water adjudication was always a States right. That's one of 
the issues you fall on your saber for. Whiskeys for drinking, 
water is for fighting. And it goes on every day. But I did--as 
the country grew; I had the opportunity the travel across the 
stretch. I said by the time they get ready to leave this old 
world that fresh water might be our greatest resource in 
Montana and watershed States, Colorado.
    Senator Allard. We have the other 50 percent.
    Senator Burns. But that little old dinky creek that you got 
called South Flat.
    Senator Allard. North of South Flat.
    Senator Burns. You know, but anyway, fresh water would be 
one of the greatest demands that this country will have is the 
availability of water. And so, we took it very serious in our 
State. We got a very strong Clean Water Act and how we handle 
our watersheds and this type of thing.
    We would hope that we could work in concert with taking 
care of something like that. But I think we're going to try to 
find some way to plus up the revolving fund. I don't know how 
we'll do it yet, but every now and again there's some real 
imagination up here too, as you well know. And we're going to 
try that.
    Moving into the areas I am concerned about, whenever you 
draw the dollars down, it seems to me that our rural water 
systems kind of gets left, they go on the back burner.
    Larger entities and municipalities and people who are 
pretty sophisticated in the way they finance and how they use 
their power here in this 17 square miles logic-free environment 
to get the projects they want and sometimes our rural areas 
that don't have as many people kind of go wanting.
    If you--have you got any kind of assurance that we can be 
assured in rural areas that there's going to be money available 
and opportunities to finance water systems? I've got two areas 
in Montana that are now undertaking new water systems in rural 
water areas. And I will tell you water they're drinking now, 
you wouldn't let livestock go to it. We've got to do some 
things in these areas where they've really got huge problems.
    Mr. Johnson. Well, Mr. Chairman, I think again you hit on 
another issue facing the country, the small water systems, 
whether they are Senator Allard's at a college level or a new 
water system dealing with issues such as arsenic.
    We are looking at ways that we can help these new water 
systems, both in the permitting process, to expedite that as 
well as to help them with some of these new technologies that 
I've been talking about in the case of arsenic that Senator 
Allard mentioned. In fact, as parts of this arsenic rule that 
does become effective next year as was noted there is a 
provision that allows the States for the small water systems to 
request an extension beyond next year.
    I believe that that extension is to the year 2015, which is 
actually 14 years after the promulgation of the rule. And the 
reason for that is, we understand that there are circumstances 
where it's naturally occurring, we understand there are 
circumstances in which communities, they're small communities 
and they need to figure out whether it's funding or other kinds 
of issues to try to reach that. And so we're trying to be 
creative, at the same time we also do need to be health 
protective.
    Senator Burns. Senator Allard.
    Senator Allard. I appreciate you to continue to discuss 
this problem. Five parts per billion is not a health problem.
    Mr. Johnson. It's actually 10, but it's still. You're 
right; it went from 50 to 10.
    Senator Allard. Even 10 parts per billion. And so--
    Mr. Johnson. The point is well taken.
    Senator Allard. I've been a health officer for the city of 
Libby, I understand. And then you impose upon these communities 
when they have natural background. They didn't create it. It's 
been there. And if you're concerned about the impact on the 
environment, that is the environment.
    Then you're imposing this huge cost, I'm trying to figure 
out how some of these towns, I'm talking about the city of 
Alamosa in the southern part of the State. It's probably the 
most acutely effected than many of them. But how they're going 
to be able to pay for that.
    Then, if you have the revolving fund, I'm not sure they 
have enough industry and enough economy there to sustain paying 
back to the revolving fund. Either we need to have a more 
efficient less costly approach to removing the arsenic or 
something needs to be done there when you impose those kinds of 
rules or regulations.
    I don't think Colorado is unique in that. You probably have 
towns all over the Rocky Mountains at least, that are going to 
have some problems.
    Mr. Johnson. I do know that our Office of Research and 
Development has been exploring and in fact, I believe has 
identified several new technologies which, at least as I 
understand are more cost effective and also can control and 
certainly I would be happy to share--we're trying to get that 
information out to the community water systems that are facing 
the kind of issues that you're facing. We would be happy to 
share that with you and keep you posted on that development.
    Senator Allard. I appreciate the leeway that you've given 
there for small communities, where the local health department, 
the State health department, can extend those provisions out so 
it has some time to respond.
    But I do think that, you know if you can--when you get a 
concern raised by cities like Alamosa, for example, if the 
Environmental Protection Agency could be more responsive and 
more positive than to what they have been led to believe. I 
think they would help a lot and would help our office a lot.
    Also, having said that, I also want to compliment the 
Environmental Protection Agency in working with the local 
community and everything in cleaning up Rocky Flats in 
Colorado. Rocky Flats will be the first nuclear facility, where 
they made the triggers for the nuclear bomb, to ever get 
cleaned up.
    They're setting a standard right now--we're more than a 
year ahead of schedule. We're billions of dollars under budget 
from what it was originally designed. We worked hard to get 
some money into it originally to accelerate that clean up. 
Things are going well. I hope as we get toward the end of this 
that you will help us help to ensure that the regulatory 
assurances are there.
    We're going to have a GAO study. I hope that you'll work 
with that. Can you keep that one of your top priorities; we 
would appreciate it if you can do that. And also, I'd like to 
address the EPA policy in which we have spill prevention 
control and countermeasure relations are being implemented for 
fuel trucks at airports.
    My question is why does the Agency feel the need to 
regulate these vehicles under EPA regulations when they're 
also, as I understand, regulated under the jurisdiction of the 
Department of Transportation? And are those regulations 
conflicting, or if they're duplicated why do we have two 
agencies with the same regulations.
    Mr. Johnson. It's my understanding that they're not 
duplicative. And it's my understanding that there were 
discussions early on before that SPCC rule as you mentioned was 
actually promulgated. As I'm sure you're aware, that we 
extended the compliance date for that until February I think 
17, but it is February 2006.
    In order to make sure that people understand, again, we're 
trying to provide some accommodations, but also importance to 
make sure that people are doing the right thing with good 
products.
    Senator Allard. But my question is why we have it? We 
already have the Department of Transportation regulating it. 
Why do you need to come in and regulate on top of that?
    Mr. Johnson. If I could, I'll ask Tom Dunn, who is our 
Deputy Assistant Administrator for the OSRA program.
    Mr. Dunn. Ours is geared at prevention and controlling and 
the Clean Water Act is where we originally get our jurisdiction 
calls for anything, that a certain number--a certain volume 
that could create a spill into navigatable waters is the 
jurisdiction that EPA has to go with.
    I think our people have been fairly astute in working with 
the Department of Transportation making sure they don't 
duplicate and replicate anything they are doing. Our job is 
strictly prevention, controls, and countermeasures in case 
there is a spill.
    Senator Allard. The definition of navigatable waters is 
pretty broad.
    Mr. Dunn. It's in court already.
    Mr. Johnson. That continues to be an issue, sir, yes.
    Senator Allard. We would like to have clarification on 
that.
    Senator Burns. Sir, if you would yield. What do you assess 
the impact that will have in airport operations?
    Mr. Dunn. We're currently looking at that right now how 
much containment, whether they have to have a secondary 
containment. Large airports present another problem, that's a 
major area in terms of how we deal with general navigation than 
smaller airports.
    Senator Burns. We're getting a lot of calls on this--these 
our FBO's, our fixed based operators. They're very concerned. 
As you know, aviation is not--commercial aviation is not too 
healthy right now. And airports are straining to not only 
maintain the infrastructure they have, but adding 
infrastructure, we hope for increased traffic with this, but 
this is the impact of secondary containment is sort of 
troubling to them.
    They think the cost can be--and the impact could be 
something.
    Mr. Dunn. Well, it could be, but what we're looking at, 
what's being analyzed and data collected in terms of how much 
is really on the airport. You know if you're talking about a 
small rural airport that has one tanker that's got 2,000 or 
3,000 gallons in a mobile source, that's dealt with completely 
different than if it's storage of 50,000 gallons, we're looking 
at the right balance.
    Senator Burns. This also spills over into our farming 
community if we're talking about secondary containment. I know 
at $3 or $4 a week we can't afford it. Especially if we want to 
keep getting bread. Emission creep, I think it's called. Sorry 
I didn't mean----
    Senator Allard. Mr. Chairman, I appreciate you allowing me 
the time to have some concerns here. I'm finished I appreciate 
it very much.
    Senator Burns. Thank you, Senator Allard, bring us up to 
date and give us a little more details on the methane to 
markets? I know it's something that we read about. But very few 
of us understand what we want to do here.
    Mr. Johnson. What it is, Mr. Chairman, is a program, one of 
the things we have done here in the United States is actually 
begin to both capture methane from a variety of sources, gas 
mills, coal mines capture it and use it as an energy source.
    So we have double benefit of reducing potential carbon into 
the air, and at the same time we have energy production. That's 
what's happening here in the United States. Its technology 
driven. We're doing it very efficiently and effectively in a 
number of sectors. Because a variety of issues facing the globe 
include both the issue of carbon which is quite controversial 
but also of energy, what we want to do and certainly we have 
14, at this point I believe we have 14 countries who want to 
partner with us to actually use these technologies to be able 
to achieve both the energy saving, as well as emission 
reduction.
    What we've been able to calculate is that based upon the $4 
million which is in the President's 2006 budget, that this 
would focus on methane emissions from landfills, coal mines, 
gas and oil operations with our 14 partner countries, which 
would result from an environmental prospective an emission 
reduction of 50 million metric tons of carbon equivalent can 
annually--plus obviously the energy use.
    So we see it as a wonderful opportunity of helping both in 
the energy arena as well as in the environmental arena at a 
very small cost to the U.S. Government to have a significant 
impact globally.
    Senator Burns. Can you give me an example of where you're 
doing some of this? Are there some demonstration units? Are you 
doing anything in the field?
    Mr. Johnson. Yes, and Rob Brenner, is our Deputy for our 
Air Office. Rob, do you have some of the specific locations 
that you can comment on?
    Mr. Brenner. Senator Burns, this program builds on some 
work that we have been doing over the last few years in this 
area, especially on capturing methane from leaking gas 
pipelines.
    We've done work with some of the parts of what was the 
Soviet Union, some of those countries and Eastern Europe where 
it turns out that their gas systems--their gas distribution 
system was very inefficient, using large amounts of natural 
gas.
    Of methane, the rut was increases in carbon loadings in the 
atmosphere and also a loss of potential energy supply for both 
those countries and some of the countries such as areas in 
Europe that they would export that natural gas to. And we can 
provide you with some background on that project and other 
similar projects.
    Mr. Johnson. Could you comment on the United States and 
what our experience is in the United States.
    Senator Burns. That's kind of a long drive just to look at 
something. What are we doing here at home?
    Mr. Brenner. If you would like to look at some of the 
projects in the United States. I'm sorry I can't bring to mind 
any specific ones, but we've worked with various utilities, 
natural gas companies and utilities in the United States. To 
use the same sort of technologies, reducing the amount of 
leakages from the natural gas distribution system.
    And then we've also worked with a number of landfills to 
capture the methane from the landfill and then use that to 
generate electricity and we can provide you a list of landfills 
and companies we've worked with and help you decide which one 
if any you would like to visit.
    Mr. Johnson. If you would for the record actually give you 
some of the specifics and that are a shorter drive than Russia.
    Senator Burns. I'm interested in how you capture and 
collect and then redistribute say a methane coming off the 
landfills. I happen to think that is a source. I've said that 
for quite awhile, ever since they started these big huge 
landfills.
    And I would like to see this happen. If we've got some 
demonstration or some places where we're doing it, then I would 
like to see how you capture it, collect it, transport it.
    Mr. Brenner. What you will see is that for a number of 
small communities they found it to be economically advantageous 
they can receive revenue from selling the electricity to its 
customers.
    Senator Burns. We in Yellowstone County, when I was a 
commissioner, we collected old motor oil, our heaters that's 
how we heat our barns for road and bridge and our shops. We 
found out that we're throwing a lot of that away. We use a lot 
of trucks and a lot of tractors and then we started collecting 
it.
    We've heated entire facilities with this different approach 
and burn that for our heat, and it keeps people from pouring 
old motor oil down in drains where you don't want it, and gives 
a use for it.
    So I would be interested in seeing how you do it, if there 
is some demonstration somewhere in some of your research 
people, I would be interested in that.
    Also, let's talk about; I mentioned in my opening statement 
with Libby, Montana, we have an unusual problem in there with 
asbestos. The folks that have lived up there for a long time 
and suffered impacts of asbestos. You began the removal actions 
in Libby back in 1999, I would imagine, have you been given any 
kind of estimates from the people in charge up there, how much 
longer they're going to be involved with the city of Libby.
    Mr. Johnson. Mr. Chairman, what my understanding is, is 
that we will be issuing our record of decision for Libby later 
this year, late this year, early 2006. And that the--our best 
estimate or at least what my understanding of best estimate 
that we will have somewhere between 1,000 to 1,200 additional 
properties that will need to be cleaned up.
    At the current funding level, which has been relatively 
constant at $17 million per year, that equating to about 200 
properties being cleaned per year. So that gives you a sense of 
timing.
    Senator Burns. People kind of want a timeline of something 
up there as we look to that. Also, we've already covered the 
airport situation. By the way, I got this idea, you know, and 
my staff almost had a mac attack over it, there's a line item--
I have a mac attack every day. I've never missed a meal; I 
don't plan on it either.
    When I looked here on leaking underground storage tank 
program, LUST, I see we're appropriating $73 million in that 
line. Does that--do those dollars come from the General 
Treasury?
    Mr. Johnson. Let me ask our Deputy Chief Financial Officer, 
Mike Ryan.
    Senator Burns. We have to have a bean counter involved 
here.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Johnson. He wears that with pride, sir.
    Mr. Ryan. Basically we have a trust fund and it's 
capitalized but, I believe to $2.1 billion, whatever you 
appropriate we take out of the trust fund, so----
    Senator Burns. You have a balance in there now that's 
pretty healthy, I think.
    Mr. Ryan. Yes, sir we do, it's about $2.1, $2.2 billion.
    Senator Burns. Can I use that over my farm programs.
    Mr. Ryan. You're in charge, Senator.
    Senator Burns. But, we have the same thing in other funds 
around here. I wonder why this--this money comes from that fund 
correct, not the General Treasury.
    Mr. Ryan. Yes, sir, yes, sir.
    Senator Burns. All right. That's all I wanted to ask on 
that. Pesticides, Senator Dorgan and I, we've been trying to 
find a way of harmonization of labels between our country and 
Canada, and I will tell you that, there maybe some people who 
would take note of this, but we have people who live in 
Plentywood, Montana that farm both in Canada and in the United 
States.
    We finally got to the point where yes, they can come across 
with their sprayers without going through a lot of inspection, 
we got that sort of done, but we haven't taken care of the 
price situation, and that still continues to be very 
concerning, although the prices are getting narrower.
    Especially on those pesticides that are used and herbicides 
that are used on both sides of the border on the same crops. So 
I hope that you would continue to work with Canadian 
authorities so we can harmonize this. Because just from a 
standpoint of farming, having farm operations on both sides of 
the border. And we have that up there right now. Senator Leahy 
has other questions and I think I do too. I'm going to go 
energy here in a little bit.
    They ought to be just about through the opening statements. 
Everybody's got to have one. And try to make that markup, 
electricity is very important to the State of Montana and we've 
got some interests up here. But we've got a couple of other 
questions, if you would respond to Senator Leahy and the 
subcommittee on his questions.
    I would imagine that other Senators will too, and we will 
forward those to your office if we could get a response to the 
subcommittee and to those Senators, I would certainly 
appreciate that.
    Mr. Johnson. My pleasure, sir.
    Senator Burns. I want to thank you for coming up this 
morning. New programs and things that are happening at EPA, 
I've always said that we turn the judicial system around. I'm 
not going to start talking about judges. Because of the 
situation with the regulatory agency, I would kind of like to 
see some--more than anything else, we're all public servants.
    We know there's a multitude of sins, thank goodness we've 
got an EPA, thank goodness they've done a terrific job, other 
times they kind of over step.
    Instead of helping to facilitate, we want to punish. And 
I'm a facilitator, as far as it can go, you know.
    In trying to help people work out the problems to do things 
better, to make it cleaner and more healthy for everybody 
around us, and so, I think you're a breath of fresh air in the 
Agency.
    I would hope you would be a facilitator and sort of help us 
and work with agriculture and we're beginning to talk a little 
bit about particulate and air, we're concerned about some the 
stuff that's swirling up around here, how do you hold it down, 
particularly in a farm operation.
    We should talk about those kinds of thing, and water, 
nonpoint, we should talk about those things before we really 
get into this business of carrying around a big old hammer, 
because we know that there are some problems out there, but we 
know there are some ways to take care of it too that can work 
both to the satisfaction of the American people for our clean 
air and clean water.
    And I think there's not one of us here that has not set 
very high standards and a very high priority on our 
environment. So, we thank you for coming this morning, thank 
you Mr. Ryan and look forward to working with you being that 
you're the green eyeshade guy.
    Mr. Ryan. That's me, sir.
    Senator Burns. Yes, sir, we understand those green eyeshade 
eyes. Sometimes they're dealers. But thank you for your 
testimony this morning and we'll hold this hearing open for a 
couple of weeks, but if you will respond to those questions and 
inquiries, I certainly appreciate that.

                         CONCLUSION OF HEARINGS

    Thank you all very much. The subcommittee will stand in 
recess subject to the call of the Chair.
    [Whereupon at 11 a.m., Thursday, May 19, the hearings were 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
